Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   HOW GRANTEES MANAGE
   FINANCIAL CONFLICTS OF
INTEREST IN RESEARCH FUNDED
 BY THE NATIONAL INSTITUTES
         OF HEALTH




                    Daniel R. Levinson
                     Inspector General

                     November 2009
                     OEI-03-07-00700
               Office of Inspector General
                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
   E X E C U T I V E                   S U M M A R Y


                  OBJECTIVES
                  1. To determine the nature of financial conflicts of interest reported by
                     grantee institutions to the National Institutes of Health (NIH) in
                     fiscal year (FY) 2006.

                  2. To determine how grantee institutions managed, reduced, or
                     eliminated these financial conflicts of interest.

                  3. To determine whether vulnerabilities exist in grantee institutions’
                     oversight of the identification and management of financial conflicts
                     of interest.


                  BACKGROUND
                  NIH receives billions of dollars annually to support its mission of
                  conducting and supporting medical research. In FY 2008, the total NIH
                  appropriation was $29.5 billion, 80 percent of which was distributed
                  through almost 50,000 competitive grants to more than 325,000
                  investigators (hereinafter referred to as researchers) at over 3,000
                  universities, medical schools, and other research institutions across the
                  country and around the world.

                  Pursuant to Federal regulation, each grantee institution receiving NIH
                  funds must have a written policy for identifying financial conflicts of
                  interest (hereinafter referred to as conflicts) and ensuring that conflicts
                  are managed, reduced, or eliminated. Grantee institutions must certify
                  that they have written and enforced administrative processes to identify
                  and manage, reduce, or eliminate conflicting interests. They must also
                  certify:
                            that existing conflicts (but not the nature of the interest or
                             other details) will be reported to NIH prior to the expenditure
                             of any funds under that award;
                            that these conflicts have been managed, reduced, or
                             eliminated; and
                            that any subsequently identified conflicts will be reported and
                             will be managed, reduced, or eliminated, at least on an interim
                             basis, within 60 days of identification.

                  We collected information from each of the 41 grantee institutions that
                  reported conflicts to NIH in FY 2006. We also requested supporting
                  documentation, including researchers’ financial disclosure forms,

OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST             i
E X E C U T I V E              S U     M M A R Y


                   conflict management plans, and conflict-of-interest committee meeting
                   notes related to 184 conflicts reported to NIH in FY 2006.


                   FINDINGS
                   The most common type of financial conflict of interest among
                   NIH-funded researchers is equity ownership. Financial conflicts of
                   interest may provide researchers with incentives to improperly influence
                   the results of grant research. The most common type of conflict among
                   researchers (111 out of 165 researchers with reported conflicts) was
                   equity ownership (including stock and stock options) in companies in
                   which the researchers’ financial interests could significantly affect the
                   grant research. Grantee institutions provided specific equity amounts for
                   56 researchers. Six of these researchers had equity valued at greater
                   than $100,000, and 13 researchers had equity ownership of 50 percent or
                   more.

                   Other conflicts involved researchers inventing technology, consulting, or
                   holding positions with outside companies. For these conflicts, grantee
                   institutions that could provide specific compensation amounts indicated
                   that seven researchers received at least $50,000 in royalty payments or
                   compensation for their services.
                   To manage financial conflicts of interest, grantee institutions often
                   require researchers to disclose their conflicts in research
                   publications; however, grantee institutions rarely reduce or
                   eliminate financial conflicts of interest. Grantee institutions reported
                   that they managed 136 researchers’ conflicts, reduced 6 researchers’
                   conflicts, and eliminated 6 researchers’ conflicts. Another 17 researchers’
                   conflicts were handled using a combination of management, reduction,
                   and elimination.
                   Grantee institutions frequently used disclosure to manage researchers’
                   conflicts. This includes disclosing the conflict in publications and/or
                   presentations in which research results are presented. Some of the other
                   methods used by grantee institutions to manage conflicts did not seem to
                   directly address the specific conflicts. Examples of these methods include
                   researchers’ certifying that their primary commitment is to the grantee
                   institution and agreeing to abide by institutional financial
                   conflict-of-interest policies and procedures.




 OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST             ii
E X E C U T I V E              S U     M M A R Y


                   Vulnerabilities exist in grantee institutions’ identification,
                   management, and oversight of financial conflicts of interest.
                         Ninety percent of the grantee institutions rely solely on
                          researchers’ discretion to determine which of their significant
                          financial interests are related to their research and are
                          therefore required to be reported.
                         Because nearly half of the grantee institutions do not require
                          researchers to provide specific amounts of equity or compensation
                          on their financial disclosure forms, the specific financial interests
                          of NIH-funded researchers are often unknown.
                         Grantee institutions do not routinely verify information
                          submitted by researchers.
                         Conflicts were not uniformly reported by grantee institutions.

                         The majority of grantee institutions do not have policies and
                          procedures to address subgrantee compliance with Federal
                          regulations regarding conflicts.
                         Grantee institutions lack documentation to support their
                          oversight of conflicts.
                         Grantee institutions are not required to report to NIH any
                          financial interests that they have with outside companies.


                   RECOMMENDATIONS
                   Eighty percent of NIH’s budget is used to fund research grants at
                   grantee institutions. Given the complex nature of researchers’ conflicts
                   and the vulnerabilities that exist regarding their identification and
                   management, there is a need for more transparency about and oversight
                   of grantee institutions. Increased oversight is needed to ensure that
                   (1) these conflicts are managed appropriately, (2) the research
                   conducted using Federal funds is not biased by any conflicting financial
                   interests of researchers, and (3) human subjects are not subjected to
                   unnecessary risks.

                   We continue to recommend, as we did in a previous report, that NIH:
                   Request grantee institutions to provide details to NIH regarding the
                   nature of all reported financial conflicts of interest and how they are
                   managed, reduced, or eliminated.



 OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST               iii
E X E C U T I V E              S U     M M A R Y


                   We also recommend that NIH:
                   Require grantee institutions to collect information on all significant
                   financial interests held by researchers and not just those deemed by
                   researchers to be reasonably affected by the research.
                   Require grantee institutions to collect information on specific
                   amounts of equity and compensation from researchers.
                   Develop and disseminate guidance on methods to verify
                   researchers’ financial interests.
                   Ensure that grantee institutions are providing adequate oversight of
                   subgrantee compliance with Federal financial conflict-of-interest
                   regulations.
                   Ensure that grantee institutions are maintaining proper
                   documentation as outlined in the Federal financial
                   conflict-of-interest regulations.
                   Ensure that grantee institutions take appropriate actions against
                   researchers who do not follow grantee institutions’
                   financial conflict-of-interest policies and procedures.
                   Increase oversight of grantee institutions to ensure that financial
                   conflicts of interest are reported and managed appropriately.
                   Develop regulations that address institutional financial conflicts of
                   interest.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   Overall, NIH did not state whether it concurs or does not concur with
                   our recommendations. We ask that in its final management decision,
                   NIH more clearly indicate whether it concurs or does not concur with
                   our recommendations and what steps, if any, it will take to implement
                   them.

                   NIH stated that it takes its compliance oversight responsibilities very
                   seriously and is committed to preserving the public trust in objective
                   scientific research.

                   NIH also stated that many of the report findings were not made within
                   the context of the current financial conflict-of-interest regulation and
                   therefore, many of the recommendations are difficult to assess and/or
                   cannot be implemented because NIH is bound by the requirements of

 OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST           iv
E X E C U T I V E              S U     M M A R Y


                   the current regulation. OIG believes that the current regulation allows
                   NIH to take a more proactive role in overseeing grantee institutions.
                   Moreover, OIG has recommended that, where necessary, NIH amend its
                   regulations to enhance its oversight of financial conflicts of interest.

                   Regarding OIG’s first recommendation, that NIH collect the details
                   about conflicts and how they were managed, reduced, or eliminated,
                   NIH stated that it could be argued that requesting this information
                   from grantees with frequency would constitute a rule, which would need
                   to be issued consistent with notice and comment procedures. OIG
                   believes that the current regulation does not prohibit NIH from
                   requesting follow-up information from grantee institutions with respect
                   to reported conflicts. The regulation specifies that the grantee
                   institutions agree to produce such information on “all” conflicting
                   interests. To address NIH’s concern, we have modified our
                   recommendation slightly to parallel the language of the regulation at
                   42 CFR § 50.604(g)(3). OIG continues to recommend that NIH work
                   with the Secretary of Department of Health and Human Services (HHS)
                   to amend the current regulation to request details regarding the nature
                   and management of conflicts at grantee institutions.

                   Regarding OIG’s recommendation that NIH increase its oversight of
                   grantee institutions, NIH highlighted a number of initiatives designed
                   to enhance its oversight of and promote grantee compliance with
                   Federal regulation. However, despite these efforts, vulnerabilities
                   continue to exist at grantee institutions in their identification,
                   management, and oversight of conflicts. Therefore, OIG maintains its
                   position that increased oversight of grantee institutions is needed to
                   ensure that conflicts are reported and managed appropriately.

                   NIH will consider OIG’s recommendation on developing and
                   disseminating guidance on methods to verify researchers’ conflicts.
                   With respect to OIG’s recommendation that grantee institutions
                   maintain proper documentation, NIH will continue to emphasize
                   grantee institution compliance with documentation requirements
                   established by Federal regulation.

                   In response to the remaining five OIG recommendations, NIH referred
                   to the recently developed Advanced Notice of Proposed Rulemaking
                   (ANPRM). NIH stated that many of the observations made by OIG are
                   addressed in the ANPRM and will be considered by NIH and HHS
                   during the formal rulemaking process. OIG understands that NIH is
                   engaged in rulemaking regarding some of the very vulnerabilities we

 OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST           v
E X E C U T I V E              S U     M M A R Y


                   identified in our report. OIG will review the proposed rule and provide
                   comments or clearance during the Department’s internal review
                   process.




 OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST         vi
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 8
                   The most common type of financial conflict of interest among
                   NIH-funded researchers is equity ownership . . . . . . . . . . . . . . . . . 8

                   To manage financial conflicts of interest, grantee institutions
                   often require researchers to disclose their conflicts in research
                   publications; however, grantee institutions rarely reduce or
                   eliminate financial conflicts of interest . . . . . . . . . . . . . . . . . . . . . 11

                   Vulnerabilities exist in grantee institutions’ identification,
                   management, and oversight of financial conflicts of interest . . . . 12


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                   Agency Comments and Office of Inspector General Response . . . 22

         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                   A: Financial Conflict-of-Interest Regulations . . . . . . . . . . . . . . . . 25

                   B: Methods Employed by Grantee Institutions To Manage,
                   Reduce, or Eliminate Conflicts Reported to NIH From
                   October 1, 2005, Through September 30, 2006 . . . . . . . . . . . . . . . 27

                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine the nature of financial conflicts of interest reported by
                     grantee institutions to the National Institutes of Health (NIH) in
                     fiscal year (FY) 2006.

                  2. To determine how grantee institutions managed, reduced, or
                     eliminated financial conflicts of interest.

                  3. To determine whether vulnerabilities exist in grantee institutions’
                     oversight of the identification and management of financial conflicts
                     of interest.


                  BACKGROUND
                  Pursuant to Federal regulation, each grantee institution receiving NIH
                  funds must have a written policy for identifying financial conflicts of
                  interest (hereinafter referred to as conflicts) and ensuring that conflicts
                  are managed, reduced, or eliminated. Conflicts occur when designated
                  official(s) of grantee institutions reasonably determine that a significant
                  financial interest could directly and significantly affect the design,
                  conduct, or reporting of the research funded by NIH. With 80 percent of
                  NIH funding allocated for extramural research grants, it is critical that
                  any existing or potential conflicts be reported and managed, reduced, or
                  eliminated by grantee institutions.

                  This study was conducted in response to a congressional request.
                  National Institutes of Health Grants
                  NIH is the primary Federal agency responsible for conducting and
                  supporting medical research. Organized into 27 Institutes and Centers
                  (Institutes), NIH receives billions of dollars annually to support its
                  mission. In FY 2008, the total NIH appropriation was $29.5 billion,
                  80 percent of which was distributed through almost 50,000 competitive
                  grants to more than 325,000 investigators (hereinafter referred to as
                  researchers) at over 3,000 universities, medical schools, and other
                  research institutions across the country and around the world. 1
                  Twenty-four of the 27 Institutes have grant-making authority. Each of
                  these 24 Institutes is responsible for managing and overseeing its



                    1 NIH, “NIH budget information.” Available online at
                  http://www.nih.gov/about/budget.htm. Accessed on November 10, 2008.



OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST             1
I N T R O D        U C T      I O N


                    grants, and each has its own grants management staff that handles
                    these functions.
                    Responsibility of Grantee Institutions
                    Federal regulation at 42 CFR pt. 50, subpart F, establishes standards to
                    ensure that the design, conduct, or reporting of research funded under
                    NIH grants will not be biased by researchers’ 2 conflicts. Pursuant to
                    42 CFR § 50.604, each grantee institution receiving NIH funds must
                    have a written policy for identifying conflicts and must ensure that
                    conflicts are managed, reduced, or eliminated. Additional text from
                    42 CFR § 50.604 is presented in Appendix A.
                    Grantee institutions must also certify that they have written and
                    enforced administrative processes to identify and manage, reduce, or
                    eliminate conflicts. As part of this process, grantee institutions must
                    collect from each researcher a listing of his/her known significant
                    financial interests (and those of his/her spouse and dependent children)
                    that would reasonably appear to be affected by the research and in
                    entities whose financial interests would reasonably appear to be
                    affected by the research. Pursuant to 42 CFR § 50.603, a significant
                    financial interest includes: salaries, royalties, or other payments from
                    sources other than the grantee institution exceeding $10,000 in a
                    12-month period; as well as equity interests exceeding $10,000 in fair
                    market value and/or representing more than 5 percent ownership in any
                    single entity (hereinafter referred to as a company). Additional text
                    from 42 CFR § 50.603 is presented in Appendix A.

                    The regulations at 42 CFR § 50.605(a) provide that a conflict exists
                    when the designated official at the grantee institution reasonably
                    determines that a significant financial interest could directly and
                    significantly affect the design, conduct, or reporting of NIH-funded
                    research. Regulations also require that the grantee institution certify
                    that existing conflicts (but not the nature of the interests or other
                    details) be reported to NIH prior to the expenditure of any grant funds
                    and that these conflicts have been managed, reduced, or eliminated.
                    The grantee institution must also certify that any subsequently
                    identified conflicts will be reported and the conflicts will be managed,
                    reduced, or eliminated, at least on an interim basis, within 60 days of
                    identification.

                      2 The term “researcher” includes the principal researcher or any other person who is
                    responsible for the design, conduct, or reporting of research funded by NIH.



 OEI-03-07-00700    HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST                              2
I N T R O D        U C T      I O N


                    The NIH Grants Policy Statement and the NIH grant application
                    explain the financial disclosure responsibilities of grantee institutions.
                    By signing a grant application, the designated representative of the
                    grantee institution is certifying that the applicant organization will
                    comply with all applicable assurances and certifications referenced in
                    the application, including those related to conflicts.

                    On May 8, 2009, NIH issued an Advance Notice of Proposed
                    Rulemaking to gain public input on whether modifications are needed to
                    42 CFR pt. 50, subpart F. NIH invited public comments on all aspects
                    of potential regulation in this area, and particularly on the following
                    issues: (1) expanding the scope of the regulation and disclosure of
                    interests, (2) changing the definition of “significant financial interest,”
                    (3) identifying and managing of conflicts by grantee institutions,
                    (4) assuring grantee institution compliance, (5) requiring grantee
                    institutions to provide additional information to NIH, and
                    (6) broadening the regulations to address institutional conflicts of
                    interest. 3
                    NIH Oversight of Grantee Institutions
                    NIH’s oversight responsibilities include ensuring that (1) grantee
                    institutions are fully and correctly implementing the financial
                    conflict-of-interest regulation at 42 CFR pt. 50, subpart F, and
                    (2) reporting requirements are being met. In FY 2006, NIH conducted
                    targeted site reviews of 18 grantee institutions as part of its oversight
                    responsibilities. The 18 grantee institutions reviewed represented
                    approximately $4 billion in research grant awards for FY 2005. 4 NIH
                    reported that the $4 billion represented approximately 25 percent of
                    total research grant awards for FY 2005.

                    NIH found no instances of intentional noncompliance by grantee
                    institutions but found that more emphasis is needed on the appropriate
                    definition of “investigator” as listed at 42 CFR § 50.603. NIH observed
                    that grantee institutions have the most difficulty identifying and
                    reporting conflicts that arise after the start of the research project and
                    obtaining disclosures from researchers who join the project after its

                      3 NIH Guide Notice NOT-OD-09-099. Available online at
                    http://grants.nih.gov/grants/guide/notice-files/NOT-OD-09-099.html. Accessed on
                    May 12, 2009.
                      4 “Observations from NIH’s FY 2006 Targeted Site Reviews on Financial Conflict of
                    Interest.” Available online at http://grants1.nih.gov/grants/policy/coi/index.htm. Accessed
                    on November 21, 2008.



 OEI-03-07-00700    HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS    OF   INTEREST                                  3
I N T R O D        U C T        I O N


                    inception. 5 Other compliance issues included (1) not having provisions
                    in place to ensure that identified conflicts are reported to NIH by
                    subgrantees through the prime grantee, (2) not having a consistent
                    reporting process in place, (3) submitting grant applications prior to
                    collecting significant financial interest information from researchers,
                    and (4) expending grant funds prior to reporting identified conflicts to
                    NIH. 6
                    Inquiries of Researchers’ Conflicts
                    Recent inquiries by the Senate Finance Committee (Committee) into
                    payments from drug and device companies to researchers and
                    physicians has led to a number of high-profile investigations into the
                    financial conflicts of interest among NIH-funded researchers. To date,
                    nine cases that involve NIH-funded researchers have been made public
                    by Committee staff. Among these cases, five include researchers who
                    allegedly failed to report that they received payments (or own stock) of
                    $1 million or more from drug and device companies. One of these
                    researchers, from Emory University, failed to disclose that he received a
                    total of $2.4 million over a 7-year period. Subsequently, NIH suspended
                    a $9 million grant to Emory and the researcher stepped down from
                    research and as department chair.
                    Related Study by the Office of Inspector General
                    In a January 2008 report, the Office of Inspector General (OIG)
                    reviewed 438 financial conflict-of-interest reports that were received by
                    NIH from grantee institutions during FY 2004 through FY 2006. 7 Of
                    these 438 reports, 93 percent did not state the nature of the conflicts
                    and 89 percent did not state how conflicts would be managed, reduced,
                    or eliminated because regulations do not require grantee institutions to
                    report the nature or other details of the conflicts. Regulations only
                    require grantee institutions to report the existence of a conflict and
                    assure that the conflict has been managed, reduced, or eliminated. The
                    report concluded that it would be difficult for NIH to determine whether
                    followup with grantee institutions is warranted if the details regarding
                    the nature and management of conflicts are not collected.




                      5 Ibid.
                      6 Ibid.
                      7 HHS, OIG, “National Institutes of Health: Conflicts of Interest in Extramural
                    Research,” OEI-03-06-00460, January 2008.



 OEI-03-07-00700    HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST                         4
I N T R O D        U C T     I O N


                    One of OIG’s recommendations to NIH was to require grantee
                    institutions to provide details regarding the nature of conflicts and how
                    they are managed, reduced, or eliminated. In response to OIG’s final
                    report, NIH did not concur with this recommendation. NIH stated that
                    the responsibility for identifying and managing conflicts must remain
                    with grantee institutions and that collecting such information would
                    effectively transfer the responsibility to the Federal Government. NIH
                    also stated that it had taken a series of actions to improve its
                    administration of financial conflict-of-interest policies and procedures.


                    METHODOLOGY
                    Scope
                    We focused our review on the 41 grantee institutions that submitted
                    225 financial conflict-of-interest reports to NIH in FY 2006. These
                    reports, provided by NIH, were originally identified in OIG’s
                    January 2008 study. An additional grantee institution sent a report to
                    NIH that was a notification of potential research misconduct and not of
                    a conflict. This grantee institution and its researcher are not included
                    in our data analysis.

                    In OIG’s prior study, we found that NIH could not provide an accurate
                    count of the financial conflict-of-interest reports received from grantees
                    during FY 2004 through FY 2006, and therefore the 225 reports
                    reviewed for this study are not a complete count of all conflicts reported
                    to NIH in FY 2006. During data collection for this study, 24 of the 41
                    grantee institutions reported sending to NIH an additional 235 financial
                    conflict-of-interest reports for FY 2006 that NIH had not originally
                    provided to us. These additional reports are not included in our data
                    analysis.
                    Data Collection
                    We collected data from each of the 41 grantee institutions that reported
                    conflicts to NIH in FY 2006. Officials from all 41 grantee institutions
                    responded to our request for information regarding the following: their
                    policies and procedures describing the reporting and management of
                    conflicts; the nature of each conflict reported to NIH in FY 2006; how
                    each conflict was managed, reduced, or eliminated; the decision process
                    for determining how each conflict was managed, reduced, or eliminated;
                    and how grantee institutions ensure researchers’ compliance with
                    Federal regulations and conflict management plans. All 41 grantee
                    institutions had policies and procedures related to conflicts.

 OEI-03-07-00700    HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST           5
I N T R O D        U C T     I O N


                    We requested documentation that outlined how grantee institutions
                    identify and manage, reduce, or eliminate conflicts. This documentation
                    included:

                            written policies and procedures that meet the requirements in
                             Federal regulations at 42 CFR pt. 50, subpart F, and any
                             additional written policies and procedures;

                            written information or guidance that the grantee institution
                             provides to researchers regarding conflicts;

                            institutional forms or checklists that researchers use to disclose
                             their significant financial interests and those used to certify
                             compliance with conflict management plans; and

                            other institutional forms or checklists used by designated
                             officials, committee members, or other staff to review and/or
                             verify financial disclosure information and determine whether
                             conflicts exist.

                    We also requested supporting documentation for each of the financial
                    conflict-of-interest reports submitted to NIH in FY 2006. Supporting
                    documentation included:

                            the researcher’s financial disclosure forms; conflict management
                             plans; proof that the conflicts were managed, reduced, or
                             eliminated; meeting notes; and records of contact;

                            correspondence to/from the researcher, conflict-of-interest
                             committee, designated officials, and other grantee institution
                             staff regarding the conflicts; and
                            any additional documentation that provides information
                             regarding how the conflicts were identified and managed,
                             reduced, or eliminated.
                    Data Analysis
                    Of the 225 financial conflict-of-interest reports submitted to NIH in
                    FY 2006 by the 41 grantee institutions, we included only 184 in our
                    analysis. We excluded 41 financial conflict-of-interest reports from
                    five different grantee institutions for various reasons. Thirty-three of
                    these 41 reports were from one grantee institution. Upon receipt of our
                    survey, that grantee institution determined that the 33 reports had
                    been mistakenly sent to NIH. According to the grantee institution, the
                    financial interests were not significant financial interests as defined by
                    Federal regulation. The grantee institution stated that these conflicts

 OEI-03-07-00700    HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST               6
I N T R O D        U C T     I O N


                    were, therefore, not required to be reported to NIH. The remaining
                    eight reports were excluded because they were either duplicates or
                    erroneous reports (e.g., the report was for an incorrect grant number).

                    We used a standard protocol to extract information from the
                    documentation. We analyzed the grantee institutions’ policies and
                    procedures regarding conflicts. We determined whether these documents
                    demonstrated that each grantee institution was meeting requirements in
                    the Federal regulation at 42 CFR § 50.604. We also determined whether
                    grantee institutions followed their own policies and procedures to identify
                    and manage, reduce, or eliminate conflicts. This includes identifying the
                    methods that were implemented to manage, reduce, or eliminate conflicts.
                    We also determined whether grantee institutions verified information
                    submitted by researchers. Verification was defined as any attempt made
                    by the grantee institution to validate, certify, or clarify the conflict
                    information provided by the researcher.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-03-07-00700    HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST           7
       F I N D I N G S

   The most common type of financial conflict of
                                                                      Federal regulation requires that
interest among NIH-funded researchers is equity                       grantee institutions report
                                    ownership                         significant financial interests to
                             NIH if they determine that the financial interests could directly and
                             significantly affect the design, conduct, or reporting of the research.
                             These financial interests may provide researchers with incentives to
                             improperly influence the results of grant research. This review includes
                             the 184 financial conflict-of-interest reports sent to NIH in FY 2006;
                             these reports involved 165 researchers.
                             The majority of researchers’ conflicts were related to equity ownership in
                             outside companies
                             Financial conflicts of interest may provide researchers with incentives
                             to improperly influence the results of grant research. The most common
                             type of conflict among researchers was equity ownership (including
                             stocks and stock options) in companies in which the researchers’
                             financial interests could significantly affect the grant research. One-
                             hundred eleven researchers owned equity in companies ranging from
                             publicly traded companies to small, privately held companies. Of these
                             111 researchers, 44 (39 percent) were founding members of the
                             companies.

                             Table 1 shows the nature of conflicts that were reported by grantee
                             institutions in FY 2006, the number of researchers who had each type of
                             conflict, and the number of reports that were related to each type.
            Table 1: Nature and Number of Conflicts Reported by Grantee Institutions
            Between October 1, 2005, and September 30, 2006

                                                                                                 1                                   2
              Nature of Conflicts                                        Number of Researchers                   Number of Reports

             Owning equity                                                                    111                                127
             Inventing or developing
                                                                                               95                                101
             technology/intellectual property
             Consulting for an outside company                                                 66                                  74

             Holding a position at an outside company                                          65                                  78

             Receiving royalties                                                               27                                  32

             Speaking or writing for an outside company                                         7                                   7

             Serving as an expert witness                                                       1                                   1
                     3                                                                          3
             Other                                                                                                                  3

           Source: OIG analysis of grantee institution survey responses.
           1
             The total number of researchers equals 165. The number of researchers in this column does not equal 165 because some
           researchers had more than one type of conflict.
           2
             The number of reports in this column does not equal 184 because some reports were about more than one type of conflict.
           3
             These three researchers are one researcher who was the daughter of the NIH program officer on the grant, one researcher
           whose spouse who was an employee of a related outside company, and one researcher whose paid staff on the grant included
           his son and an employee of his private company.
   OEI-03-07-00700           HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS OF INTEREST                                                 8
F   I N D I N G        S




                      Grantee institutions provided specific equity amounts for 56 researchers;
                      6 researchers had equity valued at more than $100,000, and
                      13 researchers had equity ownership amounts of 50 percent or more.
                      For 56 of the 111 researchers with equity ownership, grantee
                      institutions provided specific amounts of equity that were reported as
                      dollar values and/or ownership percentages. Grantee institutions
                      submitted equity values for 28 of these researchers, which ranged from
                      $0 to $4 million. Six of these 28 researchers (21 percent) had equity
                      values greater than $100,000. The average equity value for researchers
                      was $232,464 and the median was $22,500. For equity interests that
                      were valued at $0, the researchers owned a percentage of a company
                      that was above the Federal threshold (5 percent). For example, a
                      researcher could hold a percentage of equity ownership in a company for
                      which the equity had no current dollar value yet. Although the equity
                      may have no value at present, it may have great future value if the
                      research leads to the eventual commercialization of a product.

                      The researcher with equity valued at $4 million disclosed that he was
                      president and director of a company related to the research. This
                      researcher owned 400,000 shares and 300,000 stock options of the
                      company, valued at a total of $4 million. The researcher also received
                      an annual salary of $325,000.

                      For 41 of the 56 researchers with specific amounts of equity, grantee
                      institutions also submitted equity ownership percentages that ranged from
                      2 percent to 100 percent. For these 41 researchers, the average equity
                      percentage was 38 percent and the median equity percentage was
                      33 percent. Thirteen of these 41 researchers (32 percent) had equity
                      ownership amounts that were 50 percent or more.
                      Other common conflicts of researchers included inventing technology,
                      consulting, holding positions with outside companies, or receiving royalties
                      The second most common type of conflict among researchers was
                      inventing or developing technology/intellectual property related to or
                      used as part of the grant research. Grantee institutions reported that
                      95 researchers had this type of conflict. Nearly 70 percent of these
                      95 researchers had their technology/intellectual property licensed by the
                      grantee institution to a private company with which they had a




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST           9
F   I N D I N G        S


                      relationship. 8 Examples of relationships that researchers had with
                      these companies include holding equity in the companies and consulting
                      with the companies.

                      Another common type of conflict among researchers was consulting with
                      companies whose financial interests would reasonably appear to be
                      affected by the grant research. Sixty-six researchers had consulting
                      agreements with outside companies, creating conflicts. The majority of
                      researchers consulted with just one company. However, one researcher
                      consulted with five companies.

                      Sixty-five researchers held some type of position at outside companies,
                      such as serving in an executive role, serving on a company’s board of
                      directors, and/or serving on a company’s advisory board or medical
                      review board.

                      Twenty-seven researchers received royalties (either from the grantee
                      institutions or other entities) from the licensing of
                      technology/intellectual property. 9 This technology/intellectual property
                      was often licensed to the companies by the grantee institutions.

                      Grantee institutions provided specific compensation amounts for
                      31 researchers; 7 of these received at least $50,000 in payments.
                      One-hundred thirty-nine researchers invented technology/intellectual
                      property, consulted with outside companies, served on advisory boards,
                      and/or provided other types of services. Of these 139 researchers,
                      113 were compensated for their services, received royalty payments, or
                      had the potential to receive royalty payments. 10
                      Grantee institutions provided specific dollar amounts for 31 of the
                      113 researchers; seven of these 31 researchers (23 percent) received at
                      least $50,000 from royalty payments or for their services. Instead of
                      receiving a dollar payment for consulting, one additional researcher
                      received a specific percentage of equity for his services.

                         8 The Bayh-Dole Act, passed in 1980, facilitated the transfer of inventions developed by

                      federally funded research institutions to private industry. Private industry could then
                      develop the inventions into commercial products that would benefit the public. This
                      transfer of technology is often done through licensing agreements between grantee
                      institutions and private entities.
                        9 Federal regulations exclude from the definition of a significant financial interest
                      royalties received from the grantee institution; however, grantee institutions sometimes
                      identified these royalties as conflicts.
                        10 Twenty-six researchers provided services to outside companies but were not
                      compensated (i.e., they served on advisory boards without compensation).



    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS    OF   INTEREST                               10
 F   I N D I N G        S


                       Specific dollar amounts for compensation ranged from $1,500 to
                       $1.075 million. The researcher who reported $1.075 million received
                       $1 million in royalties and $75,000 in consulting fees. The average
                       dollar amount of the compensation for all researchers was $79,248 and
                       the median was $23,000.

       To manage financial conflicts of interest,             Grantee institutions reported that
                                                              136 researchers’ conflicts were
grantee institutions often require researchers to
                                                              managed, 6 researchers’ conflicts
disclose their conflicts in research publications;
                                                              were reduced, and 6 researchers’
   however, grantee institutions rarely reduce or             conflicts were eliminated.
          eliminate financial conflicts of interest           Another 17 researchers’ conflicts
                                                              were handled using a combination
                       of management, reduction, and elimination. However, grantee
                       institutions were not consistent in how they used these terms. For
                       example, grantee institutions would describe a similar management
                       method; yet one grantee institution would report the method as
                       management, whereas another would report it as reduction. Appendix
                       B provides the methods grantee institutions used to manage, reduce, or
                       eliminate researchers’ conflicts reported to NIH in FY 2006.
                       The most common method for managing conflicts was disclosure.
                       One-hundred forty-two researchers were required to disclose their
                       conflicts in the following ways:
                                 in publications and/or presentations in which the research
                                  results are circulated,
                                 to other staff working on the grants,

                                 to human research subjects participating in the grant
                                  research (this information is usually provided in patient
                                  consent forms), and/or
                                 to the grantee institutions’ Institutional Review Boards
                                  (these boards ensure the rights and safety of people
                                  participating in clinical trials).

                       The second most common method for managing conflicts was to ensure
                       that protections were in place to prevent the exertion of inappropriate
                       pressure on other staff working on the grant. Sixty-two researchers had
                       their conflicts managed using this method. This method included:




     OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST             11
F    I N D I N G       S


                                ensuring that staff who work on the grant knew where to bring
                                 any concerns about the impact of the conflict on them or the
                                 research,
                                ensuring that students and trainees were not involved with the
                                 company with which the researcher had a relationship, and/or
                                gaining prior approval before allowing students and trainees to
                                 conduct research related to the company.

                      Other common methods to manage conflicts included:
                                requiring researchers to notify the grantee institution when
                                 and how relationships with the outside companies changed
                                 (this included changes in equity amounts, changes in the
                                 nature of the researchers’ relationship with the outside
                                 companies, changes in any funding of the research provided
                                 by the outside companies, and accrual of royalties),
                                requiring researchers to ensure that an open exchange of
                                 research results would take place,
                                monitoring or oversight of the grant research by grantee
                                 institution staff not related to the grant research, and
                                limiting or prohibiting researchers from research involving
                                 human subjects.

                      Some of the other methods used by grantee institutions to manage
                      conflicts did not seem to directly address the specific conflicts.
                      Examples of these methods include researchers’ certifying that their
                      primary commitment is to the grantee institution and agreeing to abide
                      by institutional financial conflict-of-interest policies and procedures.


      Vulnerabilities exist in grantee institutions’          Vulnerabilities exist at grantee
    identification, management, and oversight of              institutions regarding conflicts.
                     financial conflicts of interest          For example, grantee institutions
                                                              do not require researchers to
                      provide specific amounts of equity or compensation on financial
                      disclosure forms. Grantee institutions also do not routinely verify all
                      researchers’ identified financial interests. Moreover, some grantee
                      institutions lacked documentation related to the reporting and/or
                      management of these conflicts. These vulnerabilities may affect the
                      identification, management, and oversight of conflicts by grantee
                      institutions.

    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST              12
F   I N D I N G        S


                      Ninety percent of the grantee institutions rely solely on the researchers’
                      discretion to determine which of their significant financial interests are
                      related to their research and are therefore required to be reported
                      Federal regulation requires grantee institutions to obtain a listing of
                      researchers’ significant financial interests that would reasonably appear
                      to be affected by their research. All 41 grantee institutions require
                      researchers to disclose only significant financial interests that relate to,
                      or could possibly relate to, the research. It is left up to each researcher’s
                      discretion to determine which significant financial interests would
                      reasonably appear to be affected by research. None of the grantee
                      institutions maintains a policy of full disclosure of all significant
                      financial interests. Full and complete disclosure ensures that the
                      determination of whether a significant financial interest relates to the
                      research rests with the grantee institution and not with the researcher.
                      However, three grantee institutions also require researchers to disclose
                      all of their consulting agreements and positions held at outside
                      companies. One grantee institution has additional disclosure
                      requirements for its faculty physicians.
                      Because nearly half of the grantee institutions do not require researchers to
                      provide specific amounts of equity or compensation on their financial
                      disclosure forms, the specific financial interests of NIH-funded researchers
                      are often unknown
                      Disclosure requirements for equity and compensation related to
                      conflicts are not consistent across grantee institutions. Of the
                      41 grantee institutions, 23 specifically instruct researchers to disclose
                      actual dollar amounts of compensation and/or equity on financial
                      disclosure forms or in supplemental forms. The remaining 18 grantee
                      institutions do not specifically instruct researchers to disclose actual
                      amounts. These grantee institutions require researchers to disclose
                      only that they received monetary compensation or equity above a
                      certain threshold (e.g., over $10,000) or as a range (e.g., $20,001 to
                      $100,000). However, 7 of these 18 grantee institutions instruct
                      researchers to provide details of their financial interests, which could
                      include actual dollar amounts. If specific amounts of equity and
                      compensation are not reported, grantee institutions may not be able to
                      assess the true nature of the conflict or determine the most appropriate
                      management strategy.

                      Grantee institutions did not provide specific equity amounts for 50 percent
                      of researchers who received equity. Grantee institutions did not provide


    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST             13
F   I N D I N G        S


                      specific amounts for 55 of 111 researchers who received equity. For
                      48 of these 55 researchers, grantee institutions provided only a
                      minimum value or a range for researchers’ equity. For the majority of
                      these equity amounts, grantee institutions provided a minimum value,
                      such as greater than 5 percent or greater than $10,000. For the
                      remaining 7 researchers, grantee institutions provided no information
                      on the amount of equity held by researchers.

                      Grantee institutions did not provide specific amounts of compensation for
                      72 percent of researchers who received compensation from an outside
                      company. Grantee institutions did not provide specific amounts of
                      compensation for 81 of the 113 researchers (72 percent) who were
                      compensated for their services, received royalty payments, or had the
                      potential to receive royalty payments. For 63 of these researchers,
                      grantee institutions provided only a minimum value or ranges. For
                      15 of the 81 researchers, grantee institutions did not provide potential
                      royalty amounts. For another 3 of the 81 researchers, the compensation
                      amount could not be found within any information that was submitted
                      by the grantee institution.
                      Grantee institutions do not routinely verify information submitted by
                      researchers
                      Thirty of the 41 grantee institutions reported that they verify the
                      information disclosed by researchers. However, only 19 of these grantee
                      institutions submitted documentation to show how they verified
                      information reported by researchers in FY 2006. Only seven of these
                      grantee institutions verified information for all of their financial
                      conflict-of-interest reports. Because grantee institutions do not
                      routinely verify information submitted by researchers, they rely on the
                      researchers to submit accurate and complete information.

                      According to the documentation, 19 grantee institutions verified
                      information for conflicts related to 59 of their 135 reports (44 percent).
                      For conflicts related to 48 reports, grantee institutions used only one
                      method to verify information. For conflicts related to 11 reports,
                      grantee institutions used multiple methods of verification.

                      For 31 of the 59 verified reports, the submitted documentation showed
                      that information was verified by reviewing licensing agreements and/or
                      patents involving the researchers. For 21 of the 59 reports, the
                      documentation showed that researchers’ involvement with outside
                      companies was confirmed through Internet searches. For 15 of the 59
                      reports, evidence showed that consulting agreements or contracts

    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST            14
F   I N D I N G        S


                      between the researchers and the outside companies were reviewed for
                      verification. Documentation for 3 of the 59 reports showed that the
                      grantee institution contacted the outside company to confirm the nature
                      of the relationship with the researcher.
                      Conflicts were not uniformly reported by grantee institutions
                      Because there was no standard format for reporting researchers’
                      conflicts to NIH during the time of our review, these conflicts were not
                      reported in a consistent format across grantee institutions. Some
                      grantee institutions sent one financial conflict-of-interest report that
                      related to one grant, but pertained to multiple researchers. Conversely,
                      other grantee institutions sent a separate report for each researcher
                      with a conflict who worked on the same grant. One grantee institution
                      sent separate reports for a researcher’s conflicts that were related to
                      several different projects associated with one grant. Because of the lack
                      of a consistent format, a one-to-one relationship did not exist between
                      the number of reports sent to NIH by grantee institutions and the
                      number of researchers who have conflicts. Without an accurate count of
                      the number of conflicts among researchers, NIH may encounter
                      difficulties with the tracking and oversight of conflicts.

                      Beginning in July 2009, NIH requires grantee institutions to utilize
                      their Electronic Research Administration (eRA) Commons Web-based
                      system to report researchers’ conflicts. 11 The financial
                      conflict-of-interest module in eRA Commons will allow grantee
                      institutions to prepare an initial financial conflict-of-interest report, as
                      well as edit or rescind the report for each identified conflict. For each
                      report submitted, the following data will be collected:

                                 grant number;

                                 principal researcher;

                                 name of the researcher with the conflict;

                                 whether the conflict has been (1) managed, (2) reduced, or
                                  (3) eliminated;

                                 whether the report is for a subgrantee; and




                        11 NIH, “Financial Conflict of Interest (FCOI): User Guide, Commons System Version

                      2.19.1.4.” Available online at http://era.nih.gov/files/fcoi_user_guide.pdf. Accessed on
                      June 19, 2009.



    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS    OF   INTEREST                               15
F   I N D I N G        S


                                the name of subgrantee if the report is for a subgrantee
                                 recipient.
                      The majority of grantee institutions do not have policies and procedures in
                      place to address subgrantee compliance with Federal regulations regarding
                      conflicts
                      Federal regulations require grantee institutions to take reasonable
                      steps to ensure that their subgrantees comply with the regulations.
                      However, only 17 out of 41 grantee institutions sent documentation
                      showing that they address subgrantee compliance with institutional
                      policies and procedures. Furthermore, documentation for only 2 of
                      these 17 grantee institutions provided specific information regarding
                      the process subgrantees should follow in disclosing conflicts to the
                      grantee institutions.

                      In addition, 2 of the 184 financial conflict-of-interest reports reviewed
                      for this study were subgrantee notifications to the grantee institutions.
                      When one of these grantee institutions was asked to provide details
                      regarding the nature and management of the researcher’s conflict for
                      the purpose of this study, the grantee institution could not do so and
                      had to contact the subgrantee for such details.
                      Grantee institutions lack documentation to support their oversight of
                      conflicts
                      Some conflicts lacked documentation regarding researchers’ financial
                      interests. Conflicts related to 18 reports at six grantee institutions did
                      not have documentation to show that grantee institutions’ reporting
                      policies and procedures were followed. For conflicts related to 15 of the
                      18 reports, grantee institutions did not submit specific forms that
                      researchers are required by policies and procedures to complete.

                      For conflicts related to 2 of the 18 reports, documentation indicated that
                      conflicts were reported inaccurately. Discrepancies were found between
                      the initial financial disclosure forms submitted by the researcher and
                      subsequent information discovered by the grantee institution. For
                      example, one researcher failed to disclose that he held 386,250 stock
                      options in the company in which he had a conflict. Another researcher
                      failed to disclose the fact that an employee of the researcher’s company
                      and the researcher’s son were paid as staff on the grant. In these two
                      instances, although the grantee institutions discovered the conflicts, the
                      researchers did not initially report them.

                      For the remaining financial conflict of interest report, no supporting
                      documentation was submitted.

    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST              16
F   I N D I N G        S


                      For conflicts related to another nine financial conflict-of-interest reports
                      at four grantee institutions, the grantee institutions submitted only
                      financial disclosure forms dated several years before or 1 year after the
                      date of the report to NIH. For example, one grantee institution
                      submitted financial disclosure forms from FY 2001 even though the
                      grantee institution’s policy requires researchers to submit annual
                      disclosures. Another grantee institution submitted financial disclosure
                      forms from FY 2007.

                      Some conflicts lacked documentation to show that they were managed,
                      reduced, or eliminated. For conflicts related to nine reports at five
                      grantee institutions, no supporting documentation was submitted to
                      show that the conflicts were managed, reduced, or eliminated.

                      For 60 out of 184 reports, no evidence could be found in the submitted
                      documentation to show that management methods were followed.
                      Submitted documentation showed that researchers followed
                      management methods in 124 of the 184 reports. For the remaining
                      60 reports, no evidence could be found in the documentation to show
                      that management methods were followed.

                      Grantee institutions submitted various types of documentation to show
                      that researchers’ conflicts were managed. For 67 reports, grantee
                      institutions submitted evidence that a periodic review of the conflicts
                      was conducted. 12 Documentation submitted for 53 reports provided
                      evidence to show that the conflicts were disclosed in publications,
                      during presentations, on consent forms, and to researchers’ staff
                      members or students. For 14 reports, submitted documentation showed
                      that a data-monitoring committee or an independent reviewer was
                      assigned to monitor the research projects.

                      Finally, documentation submitted for 15 reports contained evidence that
                      the institution obtained only a certification signature from the
                      researcher stating that management methods had been followed.




                        12 Periodic review includes written progress reports or annual updates from researchers
                      regarding their conflicts and/or reports supporting that the conflicts were managed,
                      reduced, or eliminated. Periodic review also includes reviews by a conflict-of-interest
                      committee.



    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS    OF   INTEREST                              17
F   I N D I N G        S


                      Grantee institutions are not required to report to NIH any financial interests
                      that they have with outside companies
                      Although this study focuses on researchers’ conflicts, license agreements
                      can also pose conflicts for the grantee institutions themselves. Grantee
                      institutions provided documentation that showed they held the same
                      types of financial interests as their researchers. The financial interests
                      held by these researchers were determined to be conflicts by the grantee
                      institutions. NIH does not have any policies or procedures in place for
                      grantee institutions to report institutional conflicts. The potential for
                      financial gain can pose an institutional conflict when a grantee
                      institution licenses technology/intellectual property for the purposes of
                      commercialization.




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST             18
F IE NC DO I M N MG E S N D A T
R                                      I O N      S
     R E C O M M E N D A T I O N S




                    NIH is the primary Federal agency responsible for conducting and
                    supporting medical research. Eighty percent of NIH’s $29 billion budget
                    is used to fund research grants at research institutions across the
                    country and around the world. With so much funding at stake, the
                    question of research integrity becomes crucial because of the
                    appearance or existence of conflicts by recipients of these grants. It is
                    vital to public health and safety that this research not be biased by
                    researchers’ conflicts.

                    Federal regulations establish standards to ensure that the design,
                    conduct, and reporting of federally funded research will not be biased by
                    any conflicting financial interest of a researcher. The regulations
                    require that grantee institutions only report to NIH the existence of a
                    conflict and assure that the conflict has been managed, reduced, or
                    eliminated. As found in OIG’s previous study, “National Institutes of
                    Health: Conflicts of Interest in Extramural Research,”
                    OEI-03-06-00460, NIH’s primary method of oversight is reliance on the
                    assurances that the grantee institutions have followed Federal
                    regulations and managed, reduced, or eliminated the conflicts.

                    Given the complex nature of researchers’ conflicts and the
                    vulnerabilities that exist regarding their identification and
                    management, there is a need for more transparency about and oversight
                    of grantee institutions. Increased oversight is needed to ensure that
                    (1) these conflicts are managed appropriately, (2) the research
                    conducted using Federal funds is not biased by any conflicting financial
                    interests of researchers, and (3) human subjects are not subjected to
                    unnecessary risks.

                    Therefore, we continue to recommend, as we did in the previous report,
                    that NIH:
                    Request Grantee Institutions To Provide Details to NIH Regarding the Nature
                    of All Reported Financial Conflicts of Interest and How They Are Managed,
                    Reduced, or Eliminated
                    In view of the findings of this report, OIG continues to believe that NIH
                    has cause and current authority to collect basic details regarding the
                    nature of conflicts and how they are managed as a followup to financial
                    conflict-of-interest reports filed by grantee institutions. This would


  OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST          19
R   E C O        M M E N D A T           I O N      S


                      enable NIH to question whether certain conflicts could affect the
                      research being conducted.

                      We recommend that after a grantee submits a report identifying the
                      existence of a conflict, NIH use the current authority at
                      42 CFR § 50.604(g)(3) to request details about the conflict and how it
                      was managed, reduced, or eliminated. We further recommend that NIH
                      request that 45 CFR § 50.604(g)(2) be amended to provide it with the
                      authority to require grantee institutions to report certain details to NIH
                      about the nature and management of conflicts at the time grant funds
                      are issued to the grantee institutions or for any conflicts that the
                      grantee institutions identify after the initial report.
                      We also recommend that NIH:
                      Require Grantee Institutions To Collect Information on All Significant
                      Financial Interests Held by Researchers and Not Just Those Deemed by
                      Researchers To Be Reasonably Affected by the Research
                      Federal regulation requires grantee institutions to collect a listing of
                      researchers’ known significant financial interests that would reasonably
                      appear to be affected by the research and in companies whose financial
                      interests would reasonably appear to be affected by the research. We
                      believe the term “reasonably affected by the research” is left open to
                      interpretation. In addition, in the absence of any guidelines,
                      researchers within the same grantee institution may interpret
                      “reasonably affected by the research” in different ways. Full and
                      complete disclosure ensures that the determination of whether a
                      significant financial interest relates to the research rests with the
                      grantee institution and not with the researcher.
                      To maintain consistency across grantee institutions and researchers, we
                      recommend that NIH amend 45 CFR § 50.604(c)(1) to require
                      researchers to report all significant financial interests to the grantee
                      institutions.
                      Require Grantee Institutions To Collect Information on Specific Amounts of
                      Equity and Compensation From Researchers
                      Without knowing the exact amounts of researchers’ equity and
                      compensation, grantee institutions may not know the true nature of
                      researchers’ conflicts. Collecting this information might enable grantee
                      institutions to more appropriately manage conflicts.




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST           20
R   E C O        M M E N D A T           I O N      S


                      Develop and Disseminate Guidance on Methods To Verify Researchers’
                      Financial Interests
                      Although the majority of grantee institutions reported that they verify
                      the information provided by researchers regarding their conflicts, few
                      grantee institutions submitted documentation to show that verification
                      was actually performed. To assist grantee institutions in fulfilling their
                      responsibilities under 42 § CFR 50.604(d), NIH should provide grantee
                      institutions with guidance on when and how to verify information
                      provided by researchers.
                      Ensure That Grantee Institutions Are Providing Adequate Oversight of
                      Subgrantee Compliance With Federal Financial Conflict-of-Interest
                      Regulations
                      NIH should make certain that grantee institutions are ensuring that
                      subgrantees are in compliance with Federal regulations. NIH should
                      also suggest to grantee institutions that they outline subgrantee
                      procedures for reporting conflicts to both the grantee institutions and
                      NIH.
                      Ensure That Grantee Institutions Are Maintaining Proper Documentation as
                      Outlined in the Federal Financial Conflict-of-Interest Regulations
                      Because we found cases in which grantee institutions lacked
                      documentation to show that conflicts were reported, managed, reduced,
                      or eliminated according to grantee institutions’ policies and procedures,
                      NIH should ensure that grantee institutions are maintaining proper
                      documentation as outlined in 42 CFR § 50.604(e).
                      Ensure That Grantee Institutions Take Appropriate Actions Against
                      Researchers Who Do Not Follow Grantee Institutions’ Financial
                      Conflict-of-Interest Policies and Procedures
                      NIH should ensure that grantee institutions are taking appropriate
                      actions against researchers who do not follow institutional financial
                      conflict-of-interest policies and procedures. This is consistent with
                      NIH’s important oversight responsibilities under 42 CFR § 50.606. NIH
                      may want to consider collecting information regarding noncompliant
                      researchers and any sanctions taken against them to determine
                      whether grantee institutions are appropriately handling researcher
                      noncompliance.
                      Increase Oversight of Grantee Institutions To Ensure That Financial
                      Conflicts of Interest Are Reported and Managed Appropriately
                      NIH should take a more proactive approach in overseeing grantee
                      institutions because of the varying ways grantee institutions report,

    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST             21
R   E C O        M M E N D A T           I O N      S


                      manage, and oversee conflicts. Although grantee institutions can
                      provide guidelines to researchers indicating what constitutes a
                      reportable significant financial interest, not all grantee institutions may
                      define a significant financial interest that would reasonably be affected
                      by the research in the same manner. Therefore, NIH would need to
                      provide oversight to ensure that grantee institutions are applying
                      consistent standards. NIH should also provide guidance regarding how
                      financial conflicts should be managed so that management methods are
                      used consistently across grantee institutions.
                      Develop Regulations That Address Institutional Financial Conflicts of
                      Interest
                      Institutional financial conflicts of interest are not addressed by Federal
                      regulations. Because there is the potential for grantee institutions to
                      have financial conflicts of interest related to grant research, NIH should
                      develop regulations that address these interests. In developing
                      regulations NIH should address: the definition of an institutional
                      financial conflict of interest; the elements required in a grantee
                      institution’s s policy regarding institutional financial conflicts of
                      interest; how institutional financial conflicts of interest are reported to
                      NIH; and how institutional financial conflicts of interest are managed,
                      reduced, or eliminated.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      Overall, NIH did not state whether it concurs or does not concur with
                      our recommendations. We ask that in its final management decision,
                      NIH more clearly indicate whether it concurs or nonconcurs with our
                      recommendations and what steps, if any, it will take to implement
                      them.
                      NIH stated that it takes its compliance oversight responsibilities very
                      seriously and is committed to preserving the public trust in objective
                      scientific research. NIH strongly believes that all research should be
                      conducted with the highest scientific and ethical standards.
                      Furthermore, NIH stated that it has demonstrated its commitment to
                      oversight activities and continues to make them an agency priority.

                      NIH also stated that many of the report findings were not made within
                      the context of the current financial conflict-of-interest regulation and,
                      therefore, many of the recommendations are difficult to assess and/or
                      cannot be implemented because NIH is bound by the requirements of

    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST           22
R   E C O        M M E N D A T           I O N      S


                      the current regulation. The current regulation permits NIH to rely on
                      grantee institutions to monitor and enforce researcher compliance with
                      the regulation. However, without knowing the nature of conflicts, NIH
                      cannot properly oversee conflicts among its funded researchers. OIG
                      believes that the current regulation allows NIH to take a more proactive
                      role in overseeing grantee institutions. Moreover, OIG has
                      recommended that, where necessary, NIH amend its regulations to
                      enhance its oversight of financial conflicts of interest.

                      NIH requested that OIG consider incorporating more direct references
                      to the regulatory framework within the report’s analysis, particularly
                      within the findings. Specifically, NIH requested that statements
                      exceeding the requirements of the regulation be characterized as
                      observations or suggested modifications to the current regulation. A
                      discussion of both NIH’s and grantee institutions’ responsibilities is
                      presented in the background of the report.

                      Regarding OIG’s first recommendation that NIH collect the details
                      about conflicts and how they were managed, reduced, or eliminated,
                      NIH continues to maintain that the responsibility for identifying and
                      managing conflicts belongs with grantee institutions, as assigned by the
                      current regulations. In comments on OIG’s previous study, NIH did not
                      concur with this recommendation and stated that the collection of
                      specific details of the nature and management of conflicts would
                      effectively transfer the responsibility for managing conflicts from the
                      grantee institutions to the Federal Government.

                      NIH now states that “it could be argued that” requesting this
                      information from grantees with frequency could constitute a rule, which
                      would need to be issued consistent with notice and comment procedures.
                      OIG believes that the current regulation does not prohibit NIH from
                      requesting follow-up information from grantee institutions with respect
                      to reported conflicts. The regulation specifies that the grantee
                      institutions agree to produce such information on “all” conflicting
                      interests. Further, we believe that the findings of this and related
                      reports warrant NIH’s requesting follow-up information on all reported
                      conflicts. To address NIH’s concern, we have modified our
                      recommendation slightly to parallel the language of the regulation at
                      42 CFR § 50.604(g)(3). OIG also continues to recommend that NIH
                      work with the Department of Health and Human Services (HHS) to
                      amend the current regulation to request details regarding the nature
                      and management of conflicts at grantee institutions.


    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST         23
R   E C O        M M E N D A T           I O N      S


                      Regarding OIG’s recommendation that NIH increase its oversight of
                      grantee institutions, NIH highlighted a number of initiatives designed
                      to enhance its oversight of and promote grantee compliance with
                      Federal regulation. OIG recognizes NIH’s continued efforts in
                      increasing oversight of grantee institutions. However, despite these
                      efforts, vulnerabilities continue to exist at grantee institutions in their
                      identification, management, and oversight of conflicts. Therefore, OIG
                      maintains its position that increased oversight of grantee institutions is
                      needed to ensure that conflicts are reported and managed appropriately.
                      NIH provided a summary of its oversight activities over the last decade
                      and asked that we incorporate the information in the report. The
                      summary is included in the full text of NIH’s comments presented in
                      Appendix C.

                      NIH will consider OIG’s recommendation on developing and
                      disseminating guidance on methods to verify researchers’ conflicts.
                      With respect to OIG’s recommendation that grantee institutions
                      maintain proper documentation, NIH will continue to emphasize
                      grantee institution compliance with documentation requirements
                      established by Federal regulation.

                      In response to the remaining five OIG recommendations, NIH referred
                      to the recently developed Advanced Notice of Proposed Rulemaking
                      (ANPRM). It stated that many of the observations made by OIG are
                      addressed in the ANPRM and will be considered by NIH and HHS
                      during the formal rulemaking process. OIG understands that NIH is
                      engaged in rulemaking regarding some of the very vulnerabilities we
                      identified in our report. OIG will review the proposed rule and provide
                      comments or clearance during the Department’s internal review
                      process.




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST           24
    A P P E N D I X                  ~      A


Financial Conflict-of-Interest Regulations

Text taken directly from 42 CFR § 50.603

A Significant Financial Interest means:

Anything of monetary value, including but not limited to, salary or other payments for services
(e.g., consulting fees or honoraria); equity interests (e.g., stocks, stock options or other
ownership interests); and intellectual property rights (e.g., patents, copyrights and royalties
from such rights). The term does not include:

(1) Salary, royalties, or other remuneration from the applicant institution;

(2) Any ownership interests in the institution, if the institution is an applicant under the SBIR
Program;

(3) Income from seminars, lectures, or teaching engagements sponsored by public or nonprofit
entities;

(4) Income from service on advisory committees or review panels for public or nonprofit entities;

(5) An equity interest that when aggregated for the Investigator and the Investigator's spouse
and dependent children, meets both of the following tests: Does not exceed $10,000 in value as
determined through reference to public prices or other reasonable measures of fair market
value, and does not represent more than a five percent ownership interest in any single entity;
or

(6) Salary, royalties or other payments that when aggregated for the Investigator and the
Investigator's spouse and dependent children over the next twelve months, are not expected to
exceed $10,000.

Small Business Innovation Research (SBIR) Program means the extramural research program
for small business that is established by the Awarding Components of the Public Health Service
[PHS] and certain other Federal agencies under Pub. L. 97-219, the Small Business Innovation
Development Act, as amended. For purposes of this subpart, the term SBIR Program includes
the Small Business Technology Transfer (STTR) Program, which was established by
Pub. L. 102-564.

Text taken directly from 42 CFR § 50.604

Each institution must:

(a) Maintain an appropriate written, enforced policy on conflict of interest . . . and inform each
investigator of that policy, the Investigator’s reporting responsibilities, and of these regulations.
If the Institution carries out the PHS-funded research through subgrantees, contractors, or
collaborators, the Institution must take reasonable steps to ensure that Investigators working
for such entities comply with this subpart, either by requiring those Investigators to comply



      OEI-03-07-00700    HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST             25
   A   P   P E N D       I X     ~      A


with the Institution’s policy or by requiring the entities to provide assurances to the Institution
that will enable the Institution to comply with this subpart.

(b) Designate an institutional official(s) to solicit and review financial disclosure statements
from each investigator who is planning to participate in PHS-funded research.

(c) (1) Require that by the time an application is submitted to PHS each Investigator who is
planning to participate in the PHS-funded research has submitted to the designated official(s) a
listing of his/her known Significant Financial Interests (and those of his/her spouse and
dependent children): (i) That would reasonably appear to be affected by the research for which
PHS funding is sought; and (ii) In entities whose financial interests would reasonably appear to
be affected by the research. (2) All financial disclosures must be updated during the period of
the award, either on an annual basis or as new reportable Significant Financial Interests are
obtained.

(d) Provide guidelines . . . for the designated official(s) to identify conflicting interests and take
such actions as necessary to ensure that such conflicting interests will be managed, reduced, or
eliminated.

(e) Maintain records of all financial disclosures and all actions taken by the Institution with
respect to each conflicting interest for at least 3 years from the date of submission of the final
expenditures report. . . .

(f) Establish adequate enforcement mechanisms and provide for sanctions where appropriate.

(g) Certify, in each application for the funding to which this subpart applies, that: (1) There is
[in] effect at that Institution a written and enforced administrative process to identify and
manage, reduce or eliminate conflicting interests with respect to all research projects for which
funding is sought from PHS, (2) Prior to the Institution’s expenditure of any funds . . . the
Institution will report to the PHS Awarding Component the existence of a conflicting interest
(but not the nature of the interest or other details) found by the institution and assure that the
interest has been managed, reduced or eliminated . . . and, for any interest that the Institution
identifies as conflicting subsequent to the Institution’s initial report under the award, the report
will be made and the conflicting interest managed, reduced, or eliminated, at least on an interim
basis, within sixty days of that identification; (3) the Institution agrees to make information
available, upon request, to the HHS regarding all conflicting interests identified by the
Institution and how those interests have been managed, reduced, or eliminated to protect the
research from bias; and (4) The Institution will otherwise comply with this subpart.




       OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST               26
       A P P E N D I X                             ~        B

Table B-1: Methods Employed by Grantee Institutions To Manage, Reduce, or
Eliminate Conflicts Reported to NIH From October 1, 2005, Through
September 30, 2006

                                                                                                    Number of                         2
    Methods                                                                                                  1     Number of Reports
                                                                                                  Researchers
    Disclosing conflict in publications, in presentations, to human research
    subjects, to other staff working on grant, and to Institutional Review                               142                      164
    Boards
    Protecting other staff working on grant from inappropriate pressure                                    62                       75
    Notifying grantee institution of relationship changes with outside
                                                                                                           46                       56
    company
    Ensuring open exchange of research results through publication and/or
                                                                                                           35                       45
    presentations
    Monitoring/overseeing grant research or other activity related to the
                                                                                                           35                       39
    grant research
    Limiting or prohibiting research involving human subjects                                              35                       33
    Updating grantee institution regarding research and/or technology
                                                                                                           30                       35
    developed as a result of research
    Prohibiting outside company related to conflict from sponsoring
                                                                                                           25                       30
    research; requiring approval for outside company to sponsor research
    Preapproving/overseeing purchases of goods/services from affected
                                                                                                           22                       25
    company by grantee institution
    Ensuring that no technology/intellectual property is inappropriately
                                                                                                           21                       27
    shared with outside company
    Limiting/prohibiting role in decisions affecting outside company;
                                                                                                           20                       26
    prohibiting service in specific roles at outside company
    Monitoring use of institution facilities; prohibiting use of institution
                                                                                                           20                       23
    facilities/resources to further the interests of affected company
    Modifying or limiting researcher's role in the research (e.g., allowing no
                                                                                                           16                       14
    role in subject selection or role in data analysis)
    Certifying that primary commitment is to grantee institution                                           12                       14
    Agreeing to abide by financial conflict-of-interest policies and
                                                                                                           11                       14
    procedures
    Facilitating financial conflict-of-interest training in research lab                                    9                       12
    Prohibiting the designation of the researcher as having management
                                                                                                            9                       12
    responsibilities on outside company’s Web site or in publications
    Submitting a report of compliance regarding management plan                                             9                       10
    Ensuring that an adequate level of peer review on research is
                                                                                                            7                       10
    performed by grantee institution
    Prohibiting the alteration of scope of research; informing institution of
                                                                                                            7                        7
    changes to research
    Restricting the sale of stocks; notifying grantee institution before stocks
                                                                                                            5                        7
    are sold; placing stocks in escrow
    Assuring that Federal funds are used for grant research                                                 5                        4

    Limiting amount of time spent on conflicting activity                                                   4                        5
    Prohibiting use of grantee institution name in connection with outside
                                                                                                            4                        5
    company without prior approval
                                                                                                                 continued on next page


OEI-03-07-00700              HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS          OF   INTEREST                                     27
A     P    P E N D              I X          ~        B


    Table B-1: Methods Employed by Grantee Institutions To Manage, Reduce, or
    Eliminate Conflicts Reported to NIH From October 1, 2005, Through
    September 30, 2006 (Continued)

                                                                                                       Number of                                2
     Methods                                                                                                    1          Number of Reports
                                                                                                     Researchers
     Prohibiting outside company from competing for grants and/or research
                                                                                                                   4                           5
     contracts that the grantee institution would otherwise accept
     Management of conflict not needed because conflict had already been
                                                                                                                   4                           5
     eliminated by researcher
     Divestiture                                                                                                   4                           4
     Removing research staff from research or from role as study chair/primary
                                                                                                                   4                           4
     researcher
     Requiring that if other faculty/staff have financial interest in company, it be
                                                                                                                   4                           3
     disclosed to grantee institution for approval
     Prohibiting clinical trials without approval from grantee institution                                         3                           5

     Prohibiting clinical trials at grantee institution                                                            3                           4

     Meeting with grantee institution to monitor management plan                                                   3                           3

     Communicating with NIH regarding outside relationship                                                         2                           4
     Notifying grantee institution of any decisions outside company makes that
                                                                                                                   2                           4
     could affect financial interest in company
     Monitoring use of Federal funds by grantee institution                                                        3                           3

     Disclosing management plan to outside company                                                                 3                           2
     Clarifying whether acting on behalf of grantee institution or outside
                                                                                                                   3                           2
     company when dealing with third parties
     Prohibiting activities for the outside company that may appear to duplicate
                                                                                                                   3                           2
     grant work
     Requiring royalties associated with grant to be placed in a nonprofit
     organization; having researcher’s company sell technology to grantee                                          3                           2
     institution at cost so no profits accrue to company or researcher
     Providing NIH with updates regarding technology/inventions via grant
                                                                                                                   2                           2
     progress reports
     Limiting compensation for conflicting activity                                                                2                           2
     Filing a Request for Exemption that allows researcher to conduct
                                                                                                                   2                           2
     conflicting activity
     Prohibiting subcontract work for outside company                                                              2                           2
                                            3
     Requiring sole-source justification                                                                           2                           2
     Requiring researcher to gain approval of the grantee institution’s Medical-
                                                                                                                   1                           3
     Industry committee in order to consult
     Requiring review of contracts between outside company and grantee
                                                                                                                   1                           3
     institution
     Terminating conflicting activity                                                                              1                           1

     Other methods                                                                                                15                         15

    Source: Office of Inspector General analysis of grantee institution survey responses.
    1
      Although the total number of researchers with conflicts equals 165, the number of researchers in this column does not equal 165 because a
    researcher could have more than one type of conflict.
    2
      Although the total number of reports equals 184, the number of reports in this column does not equal 184 because one report could be related to
    more than one type of conflict.
    3
      In these instances, sole source is used to indicate that only one supplier exists that is capable of providing a particular product or service.
       OEI-03-07-00700             HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS OF INTEREST                                                          28
           APPENDIX                            c

   Agency Comments



  '~ 	
....
t.""~'f..        	DEPARTMENT OF HEALTH &. HUMAN SERVICES                               Public Health Service


                                                                                       National Institutes of Health
                                                                                       Bethesda, Maryland 20892




                AUG 2 4 2009



                TO:           Stuart Wright 

                              Deputy Inspector General 

                               for Evaluations and Inspections, HHS 


                FROM: 	       Director, NIH

                SUBJECT: 	 Comments on the Office of Inspector General's Draft Report:
                           How Grantees Manage Financial Conflicts of Interest in
                           Research Funded by the National Institutes of Health,"
                           OEI-03-07-00700


                Attached are the National Institutes of Health's cor:nments on the Office of
                Inspector General's draft report entitled "How Grantees Manage Financial
                Conflicts of Interest in Research Funded by the National Institutes of Health"
                (OEI-03-07 -00700).

                We appreciate the opportunity to review and comment on this important
                topic. Should you have questions or concerns regarding our comments,
                please contact Meredith Stein in the NIH Office of Management Assessment
                at 301-496-2461.


                                                                    /S/
                                                          Francis S. Collins, M.D., Ph.D.

                Attachment




       oE1·0 3·07·00700      How NIH GRANTEES MANAGE FINANCIAL CONFLICTS OF INTEREST                                   29
A   P   P E N D       I X     ~      C




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST   30
A   P   P E N D       I X     ~      C




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST   31
A   P   P E N D       I X     ~      C




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST   32
A   P   P E N D       I X     ~      C




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST   33
A   P   P E N D       I X     ~      C




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST   34
A   P   P E N D       I X     ~      C




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST   35
A   P   P E N D       I X     ~      C




    OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST   36
   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Tanaz Dutia served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Philadelphia
                  regional office who contributed to the report include Maria Johnson and
                  Chetra Yean; central office staff who contributed include Rita Wurm.




OEI-03-07-00700   HOW NIH GRANTEES MANAGE FINANCIAL CONFLICTS   OF   INTEREST        37
